Van |

C@OQCKLE

2311 Douglas Street . E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site

(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-107

CEDAR POINT NURSERY, et al.,
Petitioners,
Vv.
VICTORIA HASSID, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF AMICUS CURIAE
OF CALIFORNIA FARM BUREAU FEDERATION IN SUPPORT OF PETITIONERS in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this

brief contains 2925 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),
as needed.

Subscribed and sworn to before me this 27th day of August, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

Loo Oudiaw-h, Chk

Affiant 39998

      

A GENERAL MOTARY-State of Nebraska
RENEE J. GOSS

My Comm. Exp. September 5, 2023
Notary Public
